                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security




                                       JUL 3 0 2014


MEMORANDUM FOR:               The Honorable Jeh C. Johnson
                              Secretary

FROM:                         John Roth  �"'\to�
                              Inspector General

SUBJECT:                      Oversight of Unaccompanied Alien Children

We are performing ongoing unannounced site visits to determine the conditions of
detention for unaccompanied alien children (UAC) in DHS custody. Site visits are taking
place along the southern border in facilities where Customs and Border Protection (CBP)
temporarily house UAC. This report covers fieldwork performed from July 1- 16, 2014.
Site visit locations are included as Attachment 1.

To accomplish this effort, we developed a checklist that incorporates requirements of
(1) The Flores v. Reno Settlement Agreement and (2) CBP's internal policies that address
the 2008 William Wilberforce Trafficking Victims Protection Reauthorization Act
(TVPRA). The Flores v. Reno Settlement Agreement governs the policy for the
treatment of unaccompanied alien children in federal custody. CBP internal policies
address additional requirements of the Homeland Security Act of 2002 and TVPRA.
Requirements include:

   •    operable and sanitary toilets and sinks;
   •    potable drinking water and adequate food;
   •    emergency medical care; adequate temperatures and ventilation;
   •    adequate supervision and access to telephones;
   •    notification to United States Citizenship and Immigration Services asylum officers
        when UAC raise protection concerns;
   •    notification to Department of Health and Human Services (HHS) for placement;
        and,
   •    UAC held in DHS custody for less than 72 hours before transfer to HHS except in
        exceptional circumstances.

We used the checklist, along with observations and interviews, to assess the treatment
of UAC in DHS custody. When feasible, we ensured that immediate action was taken to
correct deficiencies noted during site visits. The checklist is included as Attachment 2.
                 ��•ARtAt�




               �-�
                 (�No   ,t"
                              OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security



We also initiated investigations based on a June 11, 2014, American Civil Liberties Union
(ACLU) complaint to the DHS Officer for Civil Rights and Civil Liberties (CRCL) and the
DHS Office of Inspector General (OIG). The ACLU filed this complaint on behalf of 116
UAC alleging criminal behavior; violations of civil rights and liberties; and violations of
laws, regulations and policies in the treatment and processing of UAC. DHS is
investigating each of these allegations as follows:

   •   OIG - 16 allegations
   •   Immigrations and Customs Enforcement (ICE) Office of Professional
       Responsibility (OPR) - 1 allegation
   •   CBP Office of Internal Affairs (lA) - 99 allegations

The OIG is monitoring ICE and CBP investigations and will review the results. DHS CRCL
identified 38 of the 116 allegations as potential CRCL violations, and will conduct
separate reviews as appropriate.

During this reporting period, we conducted 87 unannounced site visits to 63 locations,
including CBP ports of entry, U.S. Border Patrol (USBP) checkpoints, stations, and
holding facilities; ICE detention centers; and the Federal Law Enforcement Training
Center Artesia. We visited selected sites on multiple occasions.

We developed the checklist after completing 18 of our initial site visits. Therefore, this
initial report includes information from the 69 site visits where checklists were
completed. Our subsequent reports will include information documented on checklists
for all site visits. The following section represents our overall conclusions. A detailed
summary of our site visit results is included as Attachment 3.

Allegations of Inappropriate Conduct


   •   OIG, ICE, CBP, and CRCL investigations of allegations of misconduct are ongoing.
   •   We did not observe misconduct or inappropriate conduct by DHS employees
       during our unannounced site visits.
   •   We did not receive new complaints during our random interviews of UAC.

Compliance With UAC Laws, Regulations, Policies


   •   A September 2010 OIG report emphasized the need for CBP to establish a
       procedure to document required UAC information such as the times meals are
       served, phone usage, detainee medical conditions, and detainee arrests and
       releases from CBP custody. As such, E3 is the data system CBP uses to
       document compliance with UAC guidelines. Border Patrol issued directives in

                                             2
                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security



       2012 and 2013 requiring that E3 be used to the fullest extent to capture required
       UAC information with appropriate updates. However, the system is unreliable
       due to frequent system outages which have resulted in inconsistent reporting.
       As a result, E3 is not a reliable tool for CBP to provide increased accountability
       for UAC's safety and well-being during all phases of CBP's custody process.
   •   DHS is holding UAC longer than 72 hours because no permanent shelter is
       available. Employee-to-UAC ratios are inconsistent. For example: (1) one station
       had more than 25 UAC for each employee while other facilities ranged from 0 to
       3 UAC for each employee; (2) not all facilities post copies of UAC policies in
       English and Spanish; and (3) not all facilities are systematically maintaining an
       inventory of UAC property.
   •   Temperatures in DHS facilities were inconsistent. In some facilities, DHS
       employees cannot adjust thermostats.
   •   In one location, we observed that contractors did not provide an adequate
       amount of food. We brought this issue to the attention of CBP officials who
       corrected it during our site visit.

Additional Observations


   •   Many UAC and family units require treatment for communicable diseases,
       including respiratory illnesses, tuberculosis, chicken pox, and scabies.
   •   UAC and family unit illnesses and unfamiliarity with bathroom facilities resulted
       in unsanitary conditions and exposure to human waste in some holding facilities.
       Contract cleaners and DHS employees are working to maintain sanitary
       conditions.
   •   DHS employees reported exposure to communicable diseases and becoming sick
       on duty. For example, during a recent site visit to the Del Rio USBP Station and
       Del Rio Port of Entry, CBP personnel reported contracting scabies, lice, and
       chicken pox. Two CBP Officers reported that their children were diagnosed with
       chicken pox within days of the CBP Officers' contact with a UAC who had chicken
       pox. In addition, USBP personnel at the Clint Station and Santa Teresa Station
       reported that they were potentially exposed to tuberculosis.
   •   DHS employees are donating clothing, toys and games to UAC and family units.
   •   DHS employees are purchasing food, in some instances with their own money, to
       supplement contract food supplies.




                                           3
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security



Suggestions for Consideration


To the Principal Deputy Assistant Secretary, U.S. Immigration and Customs
Enforcement:


Identify resources necessary for ICE to ensure the E3 data system functions reliably.

To the Commissioner, U.S. Customs and Border Protection:


Develop, in consultation with DHS CRCL, a "Know Your Rights and Responsibilities" video
for UAC and family units. The video should include, but need not be limited to: hygiene
while in custody; appropriate use of DHS facilities, including toilets and showers; DHS
processing procedures, such as medical screenings and vaccinations; the right to food
and potable water; procedures for access to emergency medical care, telephones, and
consular notification; and procedures for raising concerns. The video should be available
in Spanish and translated to other languages as needed.

Ensure that all DHS facilities that house unaccompanied alien children post the
Unaccompanied Alien Child Policy in English and Spanish.

Until E3 is functioning properly, DHS facilities should complete a property checklist for
each unaccompanied alien child or family unit in custody.

We appreciate the courtesies and cooperation extended to our staff by CBP personnel
during our onsite reviews.



cc:    The Honorable Thomas S. Winkowski, Principal Deputy Assistant Secretary
        U.S. Immigration and Customs Enforcement
       The Honorable R. Gil Kerlikowske, Commissioner
        U.S. Customs and Border Protection
       The Honorable Megan H. Mack, Officer for Civil Rights and Civil Liberties




                                             4
                                                                                              Attachment 1




                                                    Unaccompanied Alien Children Site Visits
                                                                      July 1-16, 2014
                                                                                             Date   of     Date of    Date   of    Date   of    Date of
   OIG INV Office            USBP SECTORS                          LOCATION
                                                                                              Visit         Visit      Visit        Visit        Visit

TUCSON (1)             Tucson Sector              Nogales                                   7/2/2014     7/15/2014
Site Vists    (2)

ELPASO    (8)                                     FLETC Artesia - FLETC    &   ICE/ERO      7/9/2014
Site Visits (8)        El Paso Sector             Clint USBP Station                        7/10/2014
                       El Paso Sector             Deming USBP Station                       7/10/2014
                       El Paso Sector             El Paso USBP Station (Station 1)          7/10/2014
                       El Paso Sector             Fort Hancock USBP Station                 7/10/2014
                       El Paso Sector             Santa Teresa USBP Station                 7/10/2014
                       El Paso Sector             Ysleta USBP Station                       7/10/2014
                       El Paso Sector             Paso Del Norte POE - CBP/OFO              7/10/2014


SAN DIEGO       (26)   El Centro Sector           Calexico USBP Station                     7/1/2014
Site Visits   (26)     El Centro Sector           Calexico Port of Entry East               7/1/2014
                       El Centro Sector           Calexico Port of Entry West               7/1/2014
                       El Centro Sector           El Centro USBP Station                    7/1/2014
                       El Centro Sector           El Centro USBP Sub-Station-1-8            7/1/2014
                       El Centro Sector           El Centro ICE ERO                         7/1/2014
                                                  El Centro ICE Service Procesings Center   7/11/2014
                       El Centro Sector           Highway 86 USBP Checkpoint                7/1/2014
                       El Centro Sector           Highway 111 USBP Checkpoint               7/1/2014
                       El Centro Sector           Indio USBP Station                        7/1/2014


                       San Diego Sector           Andrade Port of Entry                     7/1/2014
                       San Diego Sector           Boulevard USBP Station                    7/1/2014
                       San Diego Sector           Brown Field USBP Station                  7/1/2014
                       San Diego Sector           Campo USBP Station                        7/1/2014
                       San Diego Sector           Chula Vista USBP Station                  7/1/2014
                       San Diego Sector           El Cajon USBP Sub-Station-Campo           7/1/2014
                       San Diego Sector           El Cajon USBP Sub-Station-Magnolia        7/1/2014


                       San Diego Sector           Highway 94 USBP Checkpoint                7/1/2014
                       San Diego Sector           Imperial Beach USBP Station               7/1/2014
                       San Diego Sector           Interstate 8 USBP Checkpoint              7/1/2014
                       San Diego Sector           Murrieta USBP Station                     7/1/2014
                       San Diego Sector           Otay Mesa Port of Entry                   7/1/2014
                       San Diego Sector           S-2 USBP Checkpoint                       7/1/2014
                       San Diego Sector           San Clemente USBP Station                 7/1/2014
                       San Diego Sector           San Ysidro Point of Entry                 7/1/2014
                       San Diego Sector           Tecate Point of Entry                     7/1/2014


HOUSTON        (28)    Rio Grande Valley Sector   Brownsville USBP Station                  7/3/2014     7/14/2014
Site Visits (51)       Rio Grande Valley Sector   Corpus Christi BP Station                 7/7/2014     7/15/2014
                       Rio Grande Valley Sector   Falfurias USBP Station                    7/7/2014     7/15/2014
                       Rio Grande Valley Sector   Fort Brown USBP Station                   7/3/2014     7/14/2014
                       Rio Grande Valley Sector   McAllen USBP Station                      7/2/2014     7/14/2014
                       Rio Grande Valley Sector   Harlingen USBP Station                    7/3/2014     7/14/2014
                       Rio Grande Valley Sector   Kingsville USBP Station                   7/7/2014     7/16/2014
                       Rio Grande Valley Sector   Rio Grande Valley USBP Station            7/2/2014     7/14/2014
                       Rio Grande Valley Sector   Weslaco USBP Station                      7/2/2014     7/14/2014


                       Del Rio Sector             Bracketville USBP Station                 7/15/2014
                       Del Rio Sector             Carrizo Spring USBP Station               7/16/2014
                       Del Rio Sector             Comstock USBP Station                     7/16/2014
                       Del Rio Sector             Del Rio USBP Station                      7/3/2014     7/4/2014    7/6/2014     7/7/2014     7/9/2014
                       Del Rio Sector             Del Rio Port of Entry                     7/8/2014
                       Del Rio Sector             Eagle Pass North USBP Station             7/14/2014
                       Del Rio Sector             Eagle Pass South USBP Station             7/14/2014
    Del   R10 Sector   Uvalde USBP Station            7/14/2014
'

1 Laredo Sector        Cotulla USBP Station           7/7/2014     -l/14/2014
    Laredo Sector      Freer USBP Station             7/8/2014     7/16/2014
    Laredo Sector      Freer 1-59 Checkpoint          7/8/2014     7/16/2014
    Laredo Sector      Hebbronville USBP Station      7/9/2014     7/16/2014
                                                                                '
    Laredo Sector      Hebbronville 1-359 Checkpomt   7/9/2014     7/16/2014    I
    Laredo Sector      Laredo North USBP Station      7/2/2014     7/14/2014
    Laredo Sector      Laredo North USBP Checkpoint   7/7/2014     7/14/2014
    Laredo Sector      Laredo South USBP Station      7/2/2014     7/14/2014
    Laredo Sector      Laredo West USBP Station       .7/3/2014    7/15/2014
    Laredo Sector      Laredo Port of Entry           [7/15/2014
    Laredo Sector      Zapata USBP Station            7/3/2014     7/15/2014
                                                                                        Attachment 2



                                 Facility Observations Checklist
Facility Name:
Observer's Name:
Date:

Facility Observation Checklist              Conditions                                   Yes   No

Toilet                                      Operable
                                            Sanitary

                                            Screened?

Sink                                        Operable

                                            Sanitary

Drinking Water                              Available

Food                                        On-Site
                                            Contract
                                            Other
                                            Provided four to six hours
                                            Hot food

                                            Snacks, milk and juice available

Emergency Medical Care                      Trained medical technicians
                                            First aid kits
                                            Detainee access to prescribed medications
                                            Other

Temperature Control                         Working thermostat
                                            Adjustable thermostat
                                            Current temperature

                                            Blankets available

Ventilation                                 Operation

Supervision                                 UAC monitored directly?
                                            Videos available (request videos be
                                            retained)
                                            Rooms easy to observe

                                            Staff-to-UAC ratio?
Separate Holding Areas from Unrelated
Adults                                      Available
                                            Separation by gender

                                            Separation of opposite sex adults
Telephone                                   Available
                                            Phones operable

                                            Calls logged

Copy of Unaccompanied Minor Policy          Posted in English

                                            Posted in Spanish

Property Checklist                          Checklist Available
                                               Attachment 2




Name of INV Officer:

Date of observation:

Time of observation:

Name of OBP Unaccompanied Minor Coordinator:
                                                                                                             Attachmernt 3

                                Unaccompanied Alien Children Site Visits
                                                July 1-16, 2014

                                                                                                  INFORMATION NOT
                                          COMPLIANCE                NON COMPLIANCE
                                                                                                     AVAILABLE


TOILETS
Operable                                      69                              -                          -
Sanitary                                      69                              -                          �




Screened                                      6•5                             1                          2
SINK
Operable                              I       68                              -
                                                                                                         l
Sanitary                              I       68                              -
                                                                                                         l
DRINKING WATER
Available                             I       69                              �                          .




FOOD                                                                                                                           '
On-Site                                       62:                             �
                                                                                                         1                   I'
Contract                                      "                               �
                                                                                                        3                    I
Provided 4-6 Hours                            66                              1                         z
Hot Food                                      "                               1                          2
Snacks, Milk, and Juice available             65                              3                          l
EMERGENCY MEDICAL CARE
Trained Medical Techs                         67                              1                          l
                                                                                                                         1
First Aid Kits                                69                              .
                                                                                              '          .




Detainee Access to Prescription               32                              4
                                                                                              I
                                                                                                        33           �
Medications
TEMPERATURE CONTROL
Working Thermostat                            6i                              1                          2
Adjustable Thermostat                         64                              4                          1
Current Temperature                                                     Range from 56'- 80'
                                                                                              I
Blankets Available                            67                              -
                                                                                                         2
VENTILATION
O[Jeration                            I       54                              -
                                                                                                        15
SUPERVISION
UAC Monitored Directly                        67                              �
                                                                                                         2
Videos Available (Request Retained)           :!5             I              ;10'                       34
Rooms Easy to Observe                         6:8             I               -
                                                                                                         1
Staff-to-UAC Ratio                                  Range from 1 to 1 - 14 to 40                        27
SEPARATE HOLDING AREAS FROM UNRELATED ADULTS

Available                                     65                              -
                                                                                                        4
Separation by Gender                          615             I               l                          2
Separation of Opposite-Sex Adults             Sl                              -
                                                                                                        18


TELEPHONE
Available                                     6!                              -
                                                                                                         1
Phones Operable                               68                              .
                                                                                                         1
Calls Logged                                  64                              3                          2
                                                                                                             Attachment 3
